WR-B-99-03




     AUDIT
    REPORT

                              HANFORD SITE CONTRACTORS’
                                 USE OF SITE SERVICES




                                            MARCH 1999

 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                                March 11, 1999

MEMORANDUM FOR THE MANAGER, RICHLAND OPERATIONS OFFICE

FROM:                  Lawrence R. Ackerly, Regional Manager (Signed)
                       Western Regional Audit Office
                       Office of Inspector General

SUBJECT:               INFORMATION: Audit Report on "Hanford Site Contractors' Use of Site Services"

BACKGROUND

To operate the Hanford Site (Site), contractors need to use numerous services, such as telecommunications,
copying, and photography. The Richland Operations Office (Richland) directed certain contractors to
provide these and other services, called "site services," for the benefit of all contractors and assigned
responsibility for optimal utilization of these services to its Site Infrastructure Division (SID). In the past,
the Office of Inspector General audited several site services, including groundwater monitoring, protective
forces, personnel security clearances, railroad services, and fleet management. These audits disclosed that
the services were not always efficiently and effectively coordinated. Therefore, the objective of this audit
was to examine other site services, principally those provided at least in part by Fluor Daniel Hanford, Inc.,
to determine if contractors were acquiring services already available.

RESULTS OF AUDIT

Contractors acquired telecommunications, copying, and photography services that were already available,
even though the Site had enough capacity to respond to contractors' needs. Although SID was responsible
for optimal use of site services, it neither used nor obtained information needed to properly coordinate the
use of those services. Instead, it allowed the contractors to develop in-house services or purchase
commercial services rather than use the established site services. If Richland continues to allow contractors
to independently procure services already available on site, it will forgo savings of almost $1.5 million
annually. We recommended that Richland gather and use information on site services to coordinate the
contractors' use of available service capacity and direct contractors to use site services that are available.

MANAGEMENT REACTION

The Richland Operations Office concurred with the finding and recommendations and is planning corrective
action.
HANFORD SITE CONTRACTORS' USE OF SITE SERVICES

 TABLE OF
 CONTENTS

                 Overview

                 Hanford Site Contractors' Use of Site Services .............. 1


                 Hanford Site Services


                 Details of Finding............................................................ 2


                 Recommendations and Comments ................................. 4


                 Other Matters.................................................................. 5


                 Appendices


                 Scope and Methodology ................................................. 6


                 Related Audits and Reviews........................................... 8
Overview
INTRODUCTION AND   The mission of the Department of Energy (DOE), Richland Operations
OBJECTIVE          Office (Richland) is to safely manage legacy wastes, develop and deploy
                   science and technology, and provide stewardship of the
                   Hanford Site (Site). To accomplish its mission, Richland employs five
                   prime contractors: Fluor Daniel Hanford, Inc. (Fluor Daniel); Bechtel
                   Hanford, Inc. (Bechtel); Battelle-Pacific Northwest National Laboratory
                   (Battelle); Hanford Environmental Health Foundation; and BNFL, Inc.
                   Some of these contractors, in turn, have multiple subcontractors.

                   To operate the Site, contractors need to use numerous services, such
                   as telecommunications, copying, and photography. Richland directed
                   certain contractors to provide these and other services, called "site
                   services," for the benefit of all contractors and assigned responsibility for
                   optimal utilization of these services to its Site Infrastructure Division
                   (SID). In the past, the Office of Inspector General (OIG) audited
                   several site services, including groundwater monitoring, protective
                   forces, personnel security clearances, railroad services,
                   and fleet management. These audits disclosed that the services were not
                   always efficiently and effectively coordinated (see Appendix 2).
                   Therefore, the objective of this audit was to examine other site services,
                   principally those provided at least in part by Fluor Daniel, to determine if
                   contractors were acquiring services already available.

                   Contractors acquired telecommunications, copying, and photography
CONCLUSIONS AND
                   services that were already available, even though the Site had enough
OBSERVATIONS
                   capacity to respond to contractors' needs. Although SID was
                   responsible for optimal use of site services, it neither used nor obtained
                   information needed to properly coordinate the use of those services.
                   Instead, it allowed the contractors to develop in-house services or
                   purchase commercial services rather than use the established site
                   services. If Richland continues to allow contractors to independently
                   procure services already available on site, it will forgo savings of almost
                   $1.5 million annually.

                   This report contains issues that Richland should consider when
                   completing its annual assurance memorandum.



                                                  _______(Signed)________
                                                  Office of Inspector General




Page 1                                 Hanford Site Contractors' Use Of Site Services
Hanford Site Services
Capacity Of Site        Contractors acquired telecommunications, copying, and photography
Services                services even though those services were available on site and had
                        enough capacity to fulfill the contractors' needs. For instance:

                                                   Telecommunications

                        The on-site system, which is managed by a Fluor Daniel subcontractor,
                        was equipped to handle 24,400 telecommunication lines. At the time
                        of the audit, 15,700 lines were in use and 8,700 lines were available
                        for use. Despite having available lines, however, a prime contractor
                        purchased 540 to 600 lines from a commercial source. Further, another
                        contractor planned to replace its existing system in November 1999 with
                        a 3,400 to 4,000 line system.

                                                          Copying

                        The on-site copying center, operated by Fluor Daniel, had available
                        unused capacity of 8 million copies. Despite having this capacity
                        available on site, a prime contractor established its own in-house
                        copying center. Further, this same contractor also purchased from
                        commercial vendors over 850,000 copies during 1998. This purchase
                        occurred even though the contractor's own center had available unused
                        capacity of about 500,000 copies, and the Fluor Daniel center had
                        available unused capacity of 8 million copies. In addition, Fluor Daniel
                        subcontractors purchased over 106,000 additional copies from
                        commercial printing services in 1998.

                                                       Photography

                        Although only 56 percent of the photography shop capacity was
                        used, contractors purchased over $60,000 of commercial photography
                        services rather than use the established photography services.

                        In all three instances, established site services had available capacity, yet
                        contractors acquired additional services.

                        Federal Acquisition Regulation 1.602 prescribes contract administration
Landlord                responsibilities that Richland must follow for the Site. In describing
Responsibilities        these responsibilities, Department Order 430.1 stated that Richland was
                        responsible for the efficient and effective acquisition and management of
                        all Government assets. As the site landlord, Richland delegated to




Page 2                                                                        Details Of Finding
                      SID the responsibility to coordinate and integrate development of
                      various site services. As part of its mission responsibilities, SID
                      was to reduce costs associated with site services and to ensure the
                      services were optimally used.

SID Mission Not Met   Although SID was responsible for site services, it had neither used nor
                      obtained site services information needed to properly coordinate the
                      use of those services. For example, SID paid a consultant almost
                      $450,000 to evaluate the Site's telecommunications systems. The
                      consultant reported in March 1997, and again in February 1998, that
                      two contractors were using telecommunications systems other than
                      the on-site system. The consultant recommended that the two
                      contractors use the established system, thereby significantly reducing
                      Richland's telecommunications costs. However, it was not until
                      November 1998 that SID acted to encourage contractor use of the
                      on-site system. After having been informed by the OIG that one of
                      the contractors was set to replace its existing system with a system
                      that would unnecessarily cost Richland over $6 million over the next
                      5 years, SID initiated a request that the Assistant Manager for Science
                      and Technology direct the contractor to delay the acquisition. SID
                      stated that it wanted to completely explore the option of providing
                      service to the contractor through the site telecommunications system.
                      SID was also not aware that contractors were using commercial copy
                      services without proper authorization rather than using the site service.
                      When the OIG informed SID of this condition, it began a review of
                      purchased copying services to determine allowability of costs.

                      SID had not taken a proactive approach to ensure optimal use of site
                      services. When contractors proposed to acquire a service rather than
                      use the site service, SID did not determine how that acquisition would
                      affect Richland's costs. For example, a prime contractor justified using a
                      commercial telecommunications system rather than Richland's system
                      because the commercial system was $64,670 less costly per year than
                      Richland's system. Although this action may have been less costly to the
                      contractor, it actually increased Richland's total telecommunications cost
                      by about $198,670 per year because Richland had to pay for the
                      commercial service as well as the unused lines on the site system. In
                      another example, a contractor developed duplicative in-house copying
                      services that reportedly would reduce the contractor's copying costs.
                      However, as with the telecommunications example, this action may




Page 3                                                                    Details Of Finding
                  have reduced the contractor's costs, but not Richland's, because the
                  site copying service already had available unused capacity of 8 million
                  copies that was being paid for even if unused.

Increased Costs   Richland could save about $1.5 million annually if duplicative
                  telecommunications, copying, and photography services were
                  eliminated. Specifically, Richland could save about $1.3 million
                  per year if contractors used the established telecommunications
                  system. Additional savings of over $240,000 could be achieved if
                  contractors used the established copying and photography services.

RECOMMENDATIONS   We recommend that the Manager, Richland Operations Office:

                  1. direct SID to periodically gather information on the use of site
                     services and use that information to coordinate the contractors'
                     use of available service capacity; and,

                  2. direct contractors to use site services that are available.

                  Management concurred with both recommendations. Richland stated
MANAGEMENT
                  that it was currently reviewing and assessing the contractors' use of
REACTION
                  site services, particularly in the three areas identified in the report,
                  and would review site services in future years through the Annual
                  Performance Evaluation Plan and Business Management Oversight
                  Process.

                  Concerning telecommunications, Richland stated there were unresolved
                  issues related to the site system and the commercial services provided to
                  two of Richland's contractors. These issues included extension
                  of the contract for the site system, which would be done by June
                  1999, and the expiration of the telecommunications contracts of two
                  Richland contractors, the last of which would expire in November
                  1999. Richland expected to make a determination regarding the
                  telecommunications services by June 1999 and would then issue
                  directions to its contractors. Until the issues were resolved, however,
                  Richland stated that it could not respond to the estimated $1.3 million of
                  annual savings.

                  With respect to copying and photography, Richland stated it was
                  gathering information on the use of these services and coordinating
                  contractors' use of available site resources whenever possible. Richland




Page 4                                               Recommendations And Comments
                   cited actions it had taken to reduce individual purchase card (P-Card)
                   procurements of these services. Richland stated that it believed the
                   estimated savings of over $240,000 annually were overstated. However,
                   Richland did not cite an alternative savings amount. Richland stated that
                   the amount of savings would depend upon the results of its planned
                   review of copying services and upon guidance requested of
                   Headquarters.

AUDITOR COMMENTS   We consider management's comments to the recommendations to be
                   responsive.

OTHER MATTERS      The mapping activities of Richland's contractors were not integrated into
                   a definitive site-wide map. Maps produced by the various contractors
                   for the Site's 200-East Area showed a different number of structures.
                   Fluor Daniel's map showed 499 structures, Battelle's map showed 458
                   structures, and Bechtel's map showed 454 structures. In addition,
                   construction activities were not always integrated into site maps. From
                   1994 to 1997, contractors reported 12 safety occurrences of excavating
                   and breaking water and electrical lines caused by inaccurate mapping of
                   underground utilities. At the time of our audit, management still could
                   not provide updated maps for 9 of the 12 reported occurrences. We
                   also noted that contractors had recently laid about 21,000 feet of
                   underground gas lines that were not shown on any site map. Better-
                   coordinated mapping activities would reduce the risk of safety
                   occurrences and make mapping activities more effective.




Page 5                                                                    Other Matters
Appendix 1
SCOPE         The audit was performed from April 13, 1998 through November 27,
              1998, at Richland's offices; Fluor Daniel, the managing and integrating
              contractor for the Project Hanford Management Contract; Bechtel,
              the environmental restoration contractor; Battelle, management and
              operating contractor for the national laboratory; Hanford Environmental
              Health Foundation, the contractor for Site medical services; and BNFL,
              Inc., contractor for the Tank Waste Remediation System privatization
              project. Our audit included selected activities from 1994 through 1998
              for the following site services:

                 •   telecommunications systems,
                 •   copy and photography services,
                 •   pesticides and herbicides,
                 •   mapping,
                 •   local area network,
                 •   fabrication shops,
                 •   locksmith services, and,
                 •   calibration laboratory.

              To accomplish the audit objective we:
METHODOLOGY
                 • held discussions with Richland and contractor personnel;
                 • reviewed laws, regulations, and contractual requirements;
                 • reviewed budgets, expenditures, and P-Card charges;
                 • evaluated contractor efforts to efficiently use site services;
                 • reviewed reported safety occurrences caused by poor drawings
                   and maps;
                 • toured facilities such as shops, laboratories, and offices; and,
                 • evaluated Richland and contractor efforts to better integrate and
                   coordinate site services.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed Richland and contractor controls for the use of services at the
              Site. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not conduct a reliability assessment of
              computer-processed data because only a very limited amount of
              computer-processed data was used during the audit.




Page 6                                                   Scope And Methodology
         We held an exit conference with Richland's Director of Management
         and Economic Transition Division on February 17, 1999.




Page 7                                           Scope And Methodology
Appendix 2
                                     Related Audits And Reviews

This audit concerned Richland's efforts to provide coordinated and integrated site services for its
multiple contractors. Prior OIG audits and other DOE reviews related to such efforts include:

1. Audit of Richland Operations Office Oversight of Management & Operating Contractor
   Personnel Security Clearances, WR-B-91-01, November 30, 1990

  Richland had an excessive number of clearances and security levels were higher than needed.

2. Audit of Equipment Use and Repair at the Hanford Site, WR-BC-93-1, March 8, 1993

  The Hanford Site management and operating contractor had not identified under-utilized
  equipment.

3. Review of DOE's Personnel Security Clearance Program, DOE/IG-0323, March 31, 1993

  DOE had incurred unnecessary costs for unneeded clearances because of inadequate policies
  and procedures.

4. Audit of the Management and Cost of the Department of Energy's Protective Forces,
   DOE/IG-0354, July 27, 1994

  The audit showed how the cost of physical security had unnecessarily increased because
  ways to reduce the safeguards and security costs were not considered.

5. Audit of Light Vehicle Fleet Management in the Department of Energy, DOE/IG-0362,
   December 5, 1994

  DOE's operations offices' vehicle fleets were underused because the operations offices did
  not take an active role in ensuring contractors effectively monitored and managed vehicle
  utilization.

6. Audit of Groundwater Monitoring at Hanford, WR-B-97-03, November 15, 1996

  Site well monitoring activities by three principal contractors overlapped and resulted
  in duplicative groundwater monitoring activities.

7. Audit of the Use of Hanford Site Railroad System, WR-B-97-04, March 20, 1997

  The Site's railroad system was not fully used because it was not integrated into the site
  activities.



Page 8                                                                     Related Audits And Reviews
8. Audit of the U.S. Department of Energy's Efforts to Preserve Knowledge Base Needed to
   Operate a Downsized Nuclear Weapons Complex, DOE/IG-0428, October 2, 1998

  DOE had not developed a coordinated, integrated program to preserve the knowledge base
  of the downsized nuclear weapons complex.

9. Review of Control of the Spread of Radioactive Contamination Due to Biological Transport on
   the Hanford Site, DOE/RL-98-77, November 1998

  Richland needed to issue policy to control the spread of radioactive contamination and to
  ensure coordination exists between its management groups, the Office of Environment, Safety
  and Health, and other Richland line organizations.




Page 9                                                                 Related Audits And Reviews
                                                                            Report No.: WR-B-99-03


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date_________________________________

Telephone________________________________Organization___________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


                 U.S. Department of Energy Management and Administration Home Page
                                       http://www.hr.doe.gov/ig
                                                  or
                                        http://www.ma.doe.gov

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
